Office of
Inspector General

                    Semiannual Report
                      to the Congress

                      October 1, 2005
                             to
                      March 31, 2006




                        Number 34
                         April 2006
Farm Credit Administration                                Office of Inspector General
                                                          1501 Farm Credit Drive
                                                          McLean, VA 22102-5090
                                                          (703) 883-4030




   April 20, 2006




   The Honorable Nancy C. Pellett
   Chairman of the Board
   Farm Credit Administration
   McLean, Virginia 22102

   Dear Chairman Pellett:

   Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
   Agency) Office of Inspector General (OIG) for the period October 1, 2005 through March 31,
   2006. I am filing this report in accordance with the Inspector General Act of 1978, as amended
   (IG Act). Section 5(b) of the IG Act requires that you send this report to the appropriate
   Congressional committees and subcommittees within 30 days after the date of this transmittal
   along with management’s report on the status of audit recommendations.

   I am confident that the Agency will continue its commitment to address the management
   challenges delineated in this report and to implement open action items. During this reporting
   period, eight previously open action items were closed. Three closures resulted from FCA
   Board revisions to its operational policy. Two resulted from actions to strengthen project
   management for the implementation of financial systems. One closed due to management
   actions to review the job classification system. Two closed based on management’s revisions to
   the call report review process.

   This is the thirty-fourth report since creation of the OIG on January 22, 1989. I look forward to
   continuing to work with you, the FCA Board and FCA managers in the furtherance of these
   positive trends. I view the relationship between the OIG and your office as a partnership to strive
   to continually strengthen Agency operations.

   Respectfully,



   Carl A. Clinefelter
   Carl A. Clinefelter
   Inspector General

   Enclosure
                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................... 1
BACKGROUND .................................................................... 2
MANAGEMENT CHALLENGES .................................................. 2
  Human Capita l ......................................................................................... 3
  Financ ial Management .............................................................................. 4
  Leveraging Technology ............................................................................. 4
  Agenc y Governance ................................................................................. 5
  FCA Bo ard Committe e Struc ture ................................................................ 5
  Strategic Pl anning.................................................................................... 6
  A Changing Environment........................................................................... 6
AUDIT AND INSPECTION REPORTS ISSUED ................................. 7
  Rec ords Management and Pres ervation of Ins titution Knowledge .................. 7
  Independent Financial Audit for FY 2005 .................................................... 7
  In dep end en t Fed era l In forma tion
      and Security Management Ac t (FISMA) Review for FY 2005 ..................... 7
AUDIT AND INSPECTION REPORTS IN PROGRESS ......................... 8
  Independent Financial Audit and FISMA Review fo r FY 2006 ........................ 8
STATUS OF UNIMPLEMENTED RECOMMENDATIONS ....................... 8
  Audits ..................................................................................................... 8
  Ins pec tions ............................................................................................. 9
INVESTIGATIONS ................................................................ 9
LEGISLATION AND REGULATIONS .......................................... 10
OTHER ACTIVITIES............................................................ 10
  Audit Follow-up Official ........................................................................... 10
  Observations .......................................................................................... 10
  Survey of Farm Credit Sys tem Ins titutions ................................................. 10
  Peer Review ........................................................................................... 10
  Internal OIG Pr ocesses ........................................................................... 11
  OIG Performanc e Measures ..................................................................... 11
  Staff Participation in Ac ti vities of the Profess ional Community ..................... 11
  S t a f f Par t i c i p a t i o n i n Agenc y Organizations ............................................... 11
  Staff Development .................................................................................. 11
APPENDICES ................................................................... 12
  Appendix A– Index of Re porting Requirements ............................................ 12
  Appendix B– Audit/Inspec tion Reports Iss ued ............................................. 13
  Appendix C–Reports with Ques tions Cos ts ................................................ 13
  Ap pen dix
           D–R epo r ts w i th Rec omme nda tions tha t F unds
               be Pu t to Be tter Use ............................................................. 14
  Appendix E– Farm Credit Ad minist ration Organiz a ti on Chart ......................... 15
  Appendix F–Offic e of Ins pec to r General Organiz a ti on Chart ........................ 16
  Appendix G–OIG FY 2005 Performanc e Report .......................................... 17



                                                             i
EXECUTIVE SUMMARY

     This Semiannual Report to the Congress summarizes the activities and
     accomplishments of the Farm Credit Administration’s (FCA or Agency) Office of
     Inspector General (OIG) and covers the period October 1, 2005 through March 31,
     2006. Our efforts were directed toward performing audits, inspections, and
     evaluations of FCA programs and operations; conducting investigations, as
     necessary; and providing technical assistance and advice on FCA programs.

     FCA Chairman and Chief Executive Officer, Nancy C. Pellett, continued the
     implementation of changes in the Agency’s senior management and organizational
     structure. These changes were based on extensive studies of FCA operations and
     structure concluded in 2005. As a result, many Agency operations and processes
     have undergone reengineering, all designed to improve Agency performance. The
     OIG’s audit plan for 2006-2007 includes a review of the more significant of these
     reengineered operations and processes.

     The Chairman continues to demonstrate a commitment to resolve open OIG
     recommendations and agreed upon actions and to address the management
     challenges delineated in this report. The Agency remains in a cycle of change that is
     creating the opportunity for the further strengthening of Agency performance and
     effectiveness as a Federal financial regulator. However, additional time will be
     required before the results of these major organizational, personnel, and process
     changes may be fully measured.
                            FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                          OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6


BACKGROUND

     FCA is an independent Federal agency of the United States government responsible
     for the regulation and examination of Farm Credit System (FCS or System)
     institutions chartered under the Farm Credit Act of 1971, as amended (Farm Credit
     Act). FCA is also a “designated Federal entity” within the meaning of the Inspector
     General Act of 1978, as amended (IG Act).

     As a non-appropriated agency, FCA funds its expenses primarily through
     assessments to the institutions it regulates. The Agency’s fiscal year (FY) 2006
     budget is $45.5 million. Assessments by FCA to FCS institutions for FY 2006 totaled
     $40.5 million with other sources of funding totaling $5.0 million. The OIG’s FY 2006
     budget is $998,248.

     At the end of the semiannual period, FCA had 247 employees, about half of which
     are examiners located in five field offices. This is a 5.4 percent decrease in staffing
     during this reporting period and an 11.2 percent decrease from the same reporting
     period last year.

     The OIG maintains five positions. During this reporting period, the OIG’s investigator
     took another position in the Agency. As a result, the OIG restructured the
     investigator position into an audit/inspection position. Counsel to the FCA Inspector
     General (IG) has assumed the added responsibilities of investigative matters.
     Appendix E and Appendix F display the organizational structure of FCA and the OIG,
     respectively.


MANAGEMENT CHALLENGES

     This part of the semiannual report highlights major challenges confronting the
     Agency as it works to fulfill its mission. While many of these challenges have
     remained for several years, new challenges have arisen with recent restructuring
     within the Agency and with new initiatives within the FCS. While some are outside
     the Agency’s control, most can be addressed through concerted action by Agency
     management.

     Over the past year, the OIG has observed progress by FCA management in
     addressing many challenges. A major facilitator in addressing challenges were the
     strategic studies completed in 2005. The results of these studies enabled significant
     organizational change.

     For example, the completion of these studies, combined with the prior (2004)
     transition to a new Chief Examiner, has resulted in a substantive transformation in
     the Office of Examination’s organization and operating methodology. These
     changes are ongoing and will take some time to become fully institutionalized and
     reach full efficiency.


                                               2
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        Another substantive change was to reconsolidate into a single office, the Office of
        Management Services (OMS), the Agency’s personnel, financial, and information
        technology functions under the umbrella of a new manager who will also serve as
        the Chief Financial Officer. This was also a proactive FCA Board action that is
        already evidencing positive results. Strategic improvement for the Agency in the
        human capital and financial areas, in particular, should be enhanced by this
        transition.

        Comprehensive changes have also occurred over the past year in the Office of
        Regulatory Policy in terms of leadership, organization, staffing and processes.
        Several other offices have also experienced leadership and organizational changes.

        The FCA Board’s goal in catalyzing these changes is to improve the operating
        efficiency of the Agency and ensure its mission achievement.

Human Capital
        In March 2001, the OIG recommended FCA develop a human capital plan. FCA
        management agreed to this recommendation. Under Chairman Pellett’s leadership,
        senior managers have focused on the challenge of marshalling, managing, and
        maintaining human capital to assure accountability and maximize FCA performance.
        While FCA still does not have a human capital plan, the Agency has made a
        significant investment in strategic studies that can serve as the plan’s foundation.
        The objective of the strategic studies was to create a picture of the System and the
        credit needs of rural America in 5 to 7 years and identify organizational and human
        capital opportunities for the Agency to ensure FCA remains an effective regulator
        into the future.

        While FCA has made substantive strides in transforming the strategic studies into
        management actions (organizational changes and process improvements) to
        achieve better efficiency and organizational results, the challenge remains to
        complete the transformation.          How FCA completes this macro-Agency
        transformation to increase efficiency and ensure continued mission accomplishment
        will be driven by human capital.

        Thus, the capstone to this Agencywide evolution should be a long-term human
        capital plan that incorporates the elements recommended in the OIG’s Audit A00-04,
        Performance Budgeting, issued in March 2001. A critical component of managing
        human capital is providing for management succession. Individuals with the
        potential to become managers should be identified, provided developmental
        opportunities and, when appropriate, promoted to higher positions. This, as part of a
        human capital plan, should be linked to the Agency’s Strategic Plan for long-term
        achievement of the Agency’s mission.




                                                 3
                                FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                              OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

Financial Management
        Timely, accurate, and useful financial information is essential for:
            •   making day-to-day decisions;
            •   managing the Agency’s operations more efficiently, effectively, and
                economically;
            •   supporting results-oriented management approaches; and
            •   ensuring accountability on an ongoing basis.
        During FY 2001, FCA successfully implemented a financial management system
        using the services of the Department of Interior’s National Business Center. During
        September 2003, the Agency decided to reprogram funds and purchase a new
        financial system. Management originally scheduled implementation of the new
        system during FY 2004. In September 2004, the OIG issued an inspection report
        that showed significant improvements were needed in the project management of
        this new financial management system to successfully complete implementation. In
        July 2005, the new director of OMS put this project on hold until a reevaluation of this
        new system could be made.

        In subsequent months, culminating in November 2005, a decision was reached to
        not move forward with the implementation of the new financial management system
        but to enter into an agreement with the Bureau of the Public Debt for financial
        services. Such services include financial, travel, and procurement. The contractual
        time period of the agreement is April 1 through September 30, 2006.

        Management’s challenge with this outsourcing is to manage the agreement with the
        service provider to ensure that needed services are provided timely and efficiently
        and that the financial services provided enable Agency managers to better manage
        resources. Additionally, management must ensure Agency employees are properly
        trained with respect to new procedures regarding travel, procurement, and
        contracting. Efforts in this regard have already been initiated.

        In concert with this transition, OMS should develop measures of financial
        management success such as delivering financial information that managers can
        use for day-to-day operations, and developing reports that capture the full cost of
        programs and projects.

Leveraging Technology
        Information technology (IT) is a key element of management reform efforts that can
        help dramatically reshape government to improve performance and reduce costs.
        The Agency has recognized that in order to meet the constraints of its budget, it
        must be able to maximize its return on investment in technology. FCA’s challenge is
        to establish effective mechanisms to ensure that current and future members of staff
        have the skills to use technology to operate in an efficient and effective manner.



                                                    4
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        Internally, there is an opportunity for IT to complement human capital initiatives to
        reformulate the work processes of FCA. Several IT initiatives to promote efficiency
        in work processes have already been implemented by OMS management, including
        electronic leave requests and automated supervisor approval of time and attendance
        reporting. The use of IT to complement human capital initiatives also includes an
        opportunity to capture knowledge of employees who are terminating employment, for
        any reason. Recognizing this, the OIG conducted an audit and issued a report in
        February 2006 on opportunities in this matter titled Records Management and
        Preservation of Institutional Knowledge. The report included several action items
        geared to enhance the Agency’s efforts in this regard. In order to take advantage of
        these opportunities, FCA will need to invest in training and reward employees who
        are able to develop innovative approaches to accomplish Agency goals using
        technology.

        Externally, E-Government offers many opportunities to better serve the public, make
        FCA more efficient and effective, and reduce costs. FCA has begun to implement
        some E-Government applications, including the use of the Internet to collect and
        disseminate information and forms. FCA’s challenge is to develop additional E-
        Government strategies, including partnering with other agencies in this endeavor.

Agency Governance
        The Farm Credit Act provides for a full-time three-member FCA Board. The
        members are appointed by the President and confirmed by the Senate. A full-time
        three-member FCA Board for this relatively small Agency presents a challenge in
        defining the roles and responsibilities of the members relative to the governance of
        the Agency. The FCA Board must be able to engage in professional policy debate
        and set a sound course for the Agency. Its rules of operation are a foundation for
        trust and shared expectations among FCA Board members. A collegial FCA Board,
        founded on mutual trust and respect, is essential to FCA’s ultimate effectiveness.

        The Chairman took action to address this challenge by sharing authority and tasking
        a member with the responsibility to lead the FCA Board in its efforts on governance
        issues as they apply to System institutions. This resulted in a final rule on
        governance approved by the FCA Board on January 6, 2006. Also, the FCA Board’s
        operational policy has been revised and captures current rules and processes
        related to its transaction of business.

FCA Board Committee Structure
        A key revision to the FCA Board’s operational policy was the establishment of three
        committees intended to assist the FCA Board in its oversight and approval of the
        Strategic Plan, formulation of regulations and policy, and monitoring and assessment
        of risk. The committees are Strategic Planning, Regulation and Policy Development,
        and Risk. The committees are to be comprised of FCA Board staff and Agency staff,
        and organizationally report to the FCA Board. The challenge to the FCA Board will


                                                 5
                                  FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        be to ensure the committees become fully operational and yield the desired intent,
        i.e., provide assistance to the FCA Board in the fulfillment of its duties.

Strategic Planning
        The FCA Board adopted its 2004-2009 Strategic Plan in December 2003. Since
        adoption, the Agency has a new Chairman and a new FCA Board member. These
        changes in leadership provide an opportunity to revise the plan to ensure the FCA
        Board’s vision is incorporated. The establishment of the Strategic Planning
        Committee provides the FCA Board a clear avenue to periodically review and
        update, as appropriate, its strategic plan.

        The FCA Board refined the performance measures in January 2005. FCA should
        evaluate its performance measures on an ongoing basis to ensure that they
        challenge and stretch the organization. Performance measures can be a powerful
        tool to continue the push into a results-oriented organization. An effective
        performance management system fosters performance and accountability at the
        individual, organizational, and ultimately overall Agency levels.

A Changing Environment
        The System is a single industry lender and is vulnerable to economic swings.
        However, the FCS remains sound in all material respects. Earnings and capital
        levels have continued to strengthen and asset quality remains high. Nevertheless,
        there are many challenges facing agriculture and rural America today that raise the
        question of whether there should be modifications to the Farm Credit Act in order to
        enhance agricultural and rural economies of the future.

        In the early 1990s, the Government Accountability Office (GAO) conducted a
        comprehensive study of the cost and availability of credit in rural America.1 The
        GAO concluded that the System did not need new statutory authorities in the near
        term, but that ongoing structural changes in agriculture and rural America could
        justify such changes in the longer term. GAO noted that over time, as agriculture
        and rural America continue to change, the System’s charter may need to be updated
        to ensure the System is not hampered by outdated legislation. In its ongoing effort to
        provide a fair regulatory environment within which the FCS may achieve its mission,
        the FCA Board has encouraged the full utilization of the Farm Credit Act by System
        institutions through, for example, their use of existing authority to make investments
        in enterprises that benefit rural America. Additionally, the FCA Board commissioned
        a comprehensive study by staff to determine whether the Agency’s current
        guidelines on System institutions’ involvement in loan syndications should be
        revised.

        The FCA must balance the often competing demands of ensuring the FCS fulfills its
        public policy purpose, proactively examining risk in the regulated institutions both
        1
         GAO/GGD-94-39 Farm Credit System Repayment of Federal Assistance and Competitive Position,
        March 1994.

                                                      6
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        individually and systemically, and controlling the cost of the regulator. FCA’s
        challenge is complex because it has become increasingly difficult to reconcile
        significant provisions of the Farm Credit Act with the realities of the agricultural
        industry, the business environment, and financial markets in the 21ST Century.


AUDIT AND INSPECTION REPORTS ISSUED

        We conduct all audits in accordance with Government Auditing Standards issued
        by the Comptroller General of the United States for audits of Federal organizations,
        programs, activities, and functions. Inspections are in accordance with the
        President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.
        Copies of most OIG reports are available on FCA OIG Web site (www.fca.gov/oig),
        or by contacting the OIG at (703) 883-4030, (703) 883-4359 for TTY, or by e-mail at
        ig_information@fca.gov.

Records Management and Preservation of Institutional Knowledge
        In February 2006, the OIG issued an audit report on Records Management and
        Preservation of Institutional Knowledge. We found the Agency has policies,
        procedures, and controls for capturing information; however, policies and
        procedures need to be continually reexamined to ensure that approaches for
        capturing information, particularly electronic applications, are kept current and
        that the information maintained is relevant and useful. With the ever-changing
        business environment, the Agency needs to continually reassess its range of
        strategies for capturing, maintaining and sharing information internally.

Independent Financial Audit for FY 2005
        The Accountability of Tax Dollars Act of 2002 extended to FCA and certain other
        agencies a requirement to submit to the Congress and the Office of
        Management and Budget (OMB) an audited financial statement each fiscal year.
        Also, the President’s Management Agenda states agencies must continue to
        improve their financial performance by improving timeliness, enhancing
        usefulness, and ensuring reliability by obtaining and sustaining a clean audit
        opinion.

        In continuing to assist the Agency in meeting these requirements, the OIG
        contracted with Harper, Rains, Knight & Company, P.A. (HRK) to perform the
        audit of FCA’s financial statements for the FY 2005. The audit delivered a clean
        opinion and was issued November 4, 2005, meeting OMB’s reporting guideline.

Independent Federal Information Security Management Act (FISMA)
Review for FY 2005
        The OIG contracted with HRK to also perform a review of the Agency’s
        information security program’s compliance with FISMA for FY 2005. The
        evaluation was performed using guidelines established by FISMA, OMB Circular

                                                 7
                                      FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                   OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

         A-130, GAO’s Federal Information System Controls Audit Manual, and the
         National Institute of Standards and Technology. HRK found no exceptions
         during the evaluation of FCA’s compliance with FISMA.


AUDIT AND INSPECTION REPORTS IN PROGRESS

Independent Financial Audit and FISMA Review for FY 2006
         The OIG has begun planning discussions with HRK relating to the FY 2006 audit
         of the Agency’s financial statements and FISMA review. The Bureau of the
         Public Debt in Parkersburg, WV, will be handling most of the financial services
         for the Agency.


STATUS OF UNIMPLEMENTED RECOMMENDATIONS

         At the beginning of the period, there were 13 unimplemented agreed upon actions or
         recommendations from audits. During this period, four agreed upon actions were
         issued. Three agreed upon actions were closed by management. At the end of this
         reporting period, 12 agreed upon actions and 2 recommendations remain
         unimplemented from audits.
Audits
         The following table summarizes the final actions management took on open audit
         items.

                           Audit Agreed-Upon Actions and Recommendations
                                                                           Final
                                                       Open during
                                                                       Management       Open on
          Audit Report                       Issued    this 6-month
                                                                      Actions during   04/01/2006
                                                          period
                                                                        this period
          Performance Budgeting             03/23/01        2               0              2
          Office of Chief Financial
                                            01/24/02        2               0              2
              Officer
          Loan Account Reporting
                                            08/28/03        4               0              4
              System
          Human Capital: Job
                                            06/29/04        1               1              0
              Classification
          Call Report Data Verification     02/03/05        2               2              0
          Performance Measures and
                                            07/01/05        2               0              2
             Internal Controls
          Records Management &
             Preservation of                02/21/06        4               0              4
             Institutional Knowledge
                              Total                        17               3             14




                                                       8
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        The OIG issued audit reports on Performance Budgeting over 5 years ago and on
        the Office of Chief Financial Officer more than 4 years ago. Two of the original
        agreed upon actions from each of these reports remain open.

        The OIG issued an audit report on the quarterly collection of detailed borrower data
        (Loan Account Reporting Data) 2½ years ago that included nine action items. Since
        the report’s issuance, five action items have been closed and four remain open.

        The audit report on Human Capital: Job Classification had one remaining action item
        open at the beginning of the period. Management implemented corrective steps and
        this was closed.

        The audit report on Call Report Data Verification had two remaining action items
        open at the beginning of this reporting period. Management provided documentation
        to successfully close these action items.

        The audit report on Performance Measures and Internal Controls has two action
        items that remain open.

        The audit report issued in February 2006 on Records Management and Preservation
        of Institutional Knowledge has four agreed upon actions, all of which remain open at
        the end of this reporting period.

Inspections
        At the beginning of the period, there were 5 unimplemented recommendations from
        inspections. Management took action to close all 5 recommendations. There are no
        unimplemented recommendations open at the end of the period.

                     Inspection Agreed-Upon Actions and Recommendations

                                                                    Final
                                              Open during
                                                                Management        Open on
         Inspection Report        Issued      this 6-month
                                                               Actions during    04/01/2006
                                                 period
                                                                 this period

         FCA Board Policies      09/15/03            3               3               0
         Project Management      09/09/04            2               2               0
                       Total                         5               5               0




INVESTIGATIONS

        OIG Hotline calls and e-mails dealing with borrower complaints concerning FCS
        institutions and other FCS issues were referred to the FCA office or other Federal
        agency responsible for reviewing such matters.


                                                 9
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        No investigations were open at the beginning of this reporting period and none were
        opened during the reporting period.


LEGISLATION AND REGULATIONS

        In the furtherance of the OIG’s mandate to review existing and proposed legislation
        and regulations, the IG or Counsel to the IG attends joint briefings of the Board on
        regulations at the proposed and final stages. The Counsel attended joint briefings
        on governance (final rule), disclosure and reporting requirements (proposed rule),
        and regulatory burden (proposed rule and Federal Register notice).


OTHER ACTIVITIES

Audit Follow-Up Official
        FCA’s recent reorganization efforts resulted in the reassignment of the
        responsibilities of Audit Follow-up Official to the Secretary to the Board.

Observations
        During this reporting period, the OIG continued the use of Observations to provide
        feedback to management on issues that come to our attention during while
        performing other OIG work. In this regard, we issued an Observation to the OMS
        regarding computer banners. In this 6-month period, we consulted with OMB on
        privacy legislation and the need for a third party review of Agency use of information
        and data protection procedures but did not issue an Observation on the matter.

Survey of Farm Credit System Institutions
        OIG administers an ongoing survey of the regulated institutions of the FCS. The
        survey measures the quality and consistency of the Agency’s examination and
        enforcement functions. During this 6-month period, we sent 38 surveys and
        received 17 responses, a 45 percent response rate. During this reporting period
        there were no enforcement actions. Overall, Farm Credit institutions continued
        to provide favorable ratings. The OIG issues a report at the end of the FY to
        Agency management on the results of all surveys returned. We are working
        with OE management to reengineer the survey process based on new
        examination methodologies.

Peer Review
        We completed a peer review of the National Labor Relations Board’s Office of
        Inspector General’s (NLRB/OIG) audit function in accordance with guidelines
        issued by the President’s Council on Integrity and Efficiency (PCIE) and the
        Executive Council on Integrity and Efficiency (ECIE). The review determined
        that the NLRB/OIG’s audit function was in compliance with its internal policies,

                                                 10
                               FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                            OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6

        procedures, and quality control guidelines for the FY ending September 30,
        2005. We issued the peer review report to the NLRB/OIG on March 1, 2006.

Internal OIG Processes
        During this reporting period we continued the review and updating of OIG operating
        procedures.

OIG Performance Measures
        This is the tenth year this office has been using performance measures. Each year
        we assess the validity of the measures, update our benchmarks, as appropriate, and
        use the performance results to review and/or improve our effectiveness. We issued
        our report on our performance in January 2006. It is available on the FCA OIG Web
        page at www.fca.gov/oig and is included in this report.

Staff Participation in Activities of the Professional Community
        OIG staff members are encouraged to take part in organizations that contribute to
        the mission of the Inspector General community, as well as their individual
        professional development. Most staff is actively involved in one or more professional
        organizations as well as ad hoc activities of the PCIE/ECIE.
        Three staff members from the OIG were honored with awards from the PCIE/ECIE
        at the annual awards ceremony in October 2005.
        The IG continues to meet monthly with Inspectors General from the other Federal
        financial regulatory agencies and participates as a member of the PCIE/ECIE
        Inspection and Evaluation Committee.

Staff Participation in Agency Organizations
        Staff is active on several Agency workgroups and task forces. During this reporting
        period, the OIG was represented in Blacks in Government, Administrative Burden
        Reduction Workgroup, the Federal Women’s Program, and the Combined Federal
        Campaign.

Staff Development
        OIG employees continually seek ways to improve skills and become knowledgeable
        in Inspector General community efforts. The auditor received the designation,
        Certified Government Auditing Professional. In addition, the Counsel to the IG
        received a Training Award from the Council of Counsels to Inspectors General for
        instructing at the Office of Government Ethics conference.

        Also, OIG staff received three Awards for Excellence at the 8th Annual PCIE/ECIE
        Awards Ceremony held October 26, 2005.




                                                 11
                                      FCA     SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                     OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6


                                                                                              APPENDIX A

                   INDEX OF REPORTING REQUIREMENTS

INSPECTOR GENERAL ACT CITATION AND REQUIREMENT                                                             PAGE

Section 4(a)(2)    Review of Legislation and Regulations......................................................... 10

Section 5(a)(1)    Significant Problems, Abuses and Deficiencies.......................................none

Section 5(a)(2)    Recommendations for Corrective Action..................................................none

Section 5(a)(3)    Prior Recommendations Not Yet Implemented ..........................................8-9

Section 5(a)(4)    Matters Referred to Prosecutive Authorities.............................................none

Section 5(a)(5)    Summary of Instances Where Information...............................................none
                   Was Unreasonably Refused or Not Provided

Section 5(a)(6)    List of OIG Audit/Inspection Reports Issued During the Period................... 13

Section 5(a)(7)    Summary of Significant Reports Issued During the Period ........................... 7

Section 5(a)(8)    Statistical Table on Management Decisions ................................................ 13
                   with Questioned Costs

Section 5(a)(9)    Statistical Table on Management Decisions on ........................................... 14
                   Recommendations that Funds be Put to Better Use

Section 5(a)(10)   Summary of Each Audit Over Six Months Old for ......................................... 8
                   Which No Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions............................................none

Section 5(a)(12)   Significant Management Decisions with Which ......................................none
                   the Inspector General Disagreed

Section 5(a)(13)   Compliance of Agency Financial Management System................................ 7




                                                             12
                                            FCA     SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                           OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6



                                                                                           APPENDIX B

                                     Audit / Inspection Reports Issued


                                               Number of Agreed                         Recommendations
                                                                         Questioned
                                                 Upon Actions/                          That Funds Be Put
                                                                           Costs
               Title of Report                 Recommendations                            to Better Use

     Records Management and
       Preservation of Institutional                    4                    $0                  $0
       Knowledge

                                  Total                 4                    $0                  $0


                                                                                           APPENDIX C

                                       Reports with Questioned Costs

                                                            Number                     Dollar Value

                                                                             Questioned      Unsupported
                                                     Reports        Recs.
                                                                               Costs            Costs

A.      For which no management decision
        has been made by the commencement               0            0            $0              $0
        of the reporting period

B.      Which were issued during the
                                                        0            0            $0              $0
        reporting period

Subtotals (A+B)                                         0            0            $0              $0

C.      For which a management decision was
                                                        0            0            $0              $0
        made during the reporting period

        (i) dollar value of disallowed costs            0            0            $0              $0

        (ii) dollar value of costs not disallowed       0            0            $0              $0

D.      For which no management decision
        has been made by the end of the                 0            0            $0              $0
        reporting period

E.      For which no management decision
        was made within six months of                   0            0            $0              $0
        issuance




                                                               13
                                        FCA       SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                         OCTOB ER 1 , 2 00 5—MARCH 3 1 , 2 00 6



                                                                                  APPENDIX D

              Reports with Recommendations that Funds be Put to Better Use

                                                         Number of    Number of
                                                          Reports       Recs.       Dollar Value

A. For which no management decision has been
   made by the commencement of the reporting                    0        0              $0
   period

B. Which were issued during the reporting period                0        0              $0

Subtotals (A + B)                                               0        0              $0

C. For which a management decision was made
                                                                0        0              $0
   during the reporting period

    (i) dollar value of recommendations that
                                                                0        0              $0
        were agreed to by management

        --based on proposed management action                   0        0              $0

        -- based on proposed legislative action                 0        0              $0

    (ii) dollar value of recommendations that
                                                                0        0              $0
         were not agreed to by management

D. For which no management decision has been
                                                                0        0              $0
   made by the end of the reporting period

E. For which no management decision was made
                                                                0        0              $0
   within six months of issuance




                                                           14
FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
          APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05


                                    APPENDIX E
Farm Credit Administration Organization Chart




              15
                      FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                APRI L 1 , 2 0 05 — SEPTEM BER 3 0, 20 05


                                                           APPENDIX F

     Office of Inspector General Organization Chart



                              Inspector General
                               Carl A. Clinefelter


   Counsel to IG        Auditor                  Auditor    Management Analyst
Elizabeth M. Dean   Veronica McCain              Vacant     Mary Beth Barbagallo




                                          16
                               FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                          APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                                    APPENDIX G
Fiscal Year 2005 Performance Report




Office of
Inspector General


                                                       FISCAL YEAR 2005
                                                    PERFORMANCE REPORT




                                                              January 2006




                                               17
                                      FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                 APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05

Farm Credit Administration                                Office of Inspector General
                                                          1501 Farm Credit Drive
                                                          McLean, VA 22102-5090
                                                          (703) 883-4030




   January 10, 2006


   The Honorable Nancy C. Pellett
   Chairman
   Farm Credit Administration
   1501 Farm Credit Drive
   McLean, Virginia 22102


   Dear Ms. Pellett:

   The Government Performance and Results Act of 1993 encourages organizations to manage
   for results and hold managers accountable for executing programs to achieve desired
   outcomes. The enclosed report documents the outcomes or impact of the products, services
   and leadership of the Office of Inspector General (OIG).

   The OIG has been successful in its role as an agent for positive change within the Farm Credit
   Administration (FCA or Agency). The results reflect the commitment that OIG staff has to
   assisting you, the FCA Board, and FCA employees achieve the Agency’s mission of ensuring a
   safe and sound Farm Credit System that provides a dependable source of credit to farmers and
   ranchers.

   We look forward to continuing to work with you to ensure FCA remains vigilant in its efforts to
   accomplish its mission. I welcome your comments on ways the OIG can continue to improve
   our services that help you achieve your goals for FCA operations.

   If you have any questions, or concerns, please call me.

   Respectfully,

   Carl A. Clinefelter
   Carl A. Clinefelter
   Inspector General

   Enclosure




                                                         18
                                                            FCA        SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                           APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05



                                                        TABLE OF CONTENTS

                                                                                                                                                      Page
Executive Summary ...................................................................................................................................1

Audits and Inspections ...............................................................................................................................2

Investigations..............................................................................................................................................5

Legislative and Regulatory Review ...........................................................................................................7

Outreach .....................................................................................................................................................8

Appendix ...................................................................................................................................................10




                                                                                            19
                                        FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                  APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                     Farm Credit Administration
                     Office of Inspector General
                   FY 2005 Performance Measures

                                  EXECUTIVE SUMMARY
The Office of Inspector General (OIG) of the Farm Credit Administration (FCA or Agency) met or
exceeded most targets or goals for performance in Fiscal Year (FY) 2005. Goals pertained to:
       audits and inspections,
       technical assistance to Agency officials and management,
       continuous improvement of the OIG staff,
       investigation of administrative and criminal violations,
       reviewing and commenting on legislation and regulations affecting the Agency and the IG
       community, and
       outreach.
During FY 2005 the OIG issued two program audits: 1) the Call Report Data Verification and 2)
Performance Measures and Internal Controls. The FY 2004 Audit of the FCA’s Financial
Statement was also issued without material findings.

An inspection of Protection of Credit Card Numbers was issued, as well as a review of the Federal
Information Security Management Act (FISMA). The OIG continued the practice of issuing IG
Observations. The purpose of issuing an Observation is to alert Agency officials and managers to
new issues, problems or information to aid in decision making. The OIG issued observations on the
following topics: Identity Theft, Building Security, Position Evaluation Program, Adherence to Board
Policy 64, Suggestions concerning the Proposed Rule on Waiver of Borrower Rights–Syndications,
Work-Life Benefits, Notification of impact of legislation concerning privacy of confidential
information, and Opt-out provisions for consumers of a rule set forth by the Federal Trade
Commission.

OIG products were timely and constructive. Most products addressed risk to the Agency. Over 80%
of the products contained recommendations to improve Agency operations. Feedback showed
management’s satisfaction with OIG products.

Since 1995, the OIG has developed, administered, and collected survey data from the Farm Credit
System (FCS or System), following a System institution’s examination, for use by the Agency as a
feedback mechanism on the quality and effectiveness of the examination function.

A measure of our success is contributing to the Agency’s continuous adaptation of sound business
practices and basic integrity. We are hopeful that the Agency will continue to show firm commitment
to decision making and follow-up to improve operations and programs.

The OIG welcomes comments and suggestions related to performance measurement.




                                                        20
                                                                                                    FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                               APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                     Farm Credit Administration
                                                     Office of Inspector General
                                                   FY 2005 Performance Measures
                                                                    AUDITS AND INSPECTIONS
                   Objective—Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

           Performance Goal 1—Deliver quality audit and inspection products and services that are useful to the Board.

                                OUTPUT/CRITERIA                                                                     OUTCOME/IMPACT

Audits and inspections are relevant. Audit coverage includes all mandated        FCA programs and operations are more effective. Waste in Agency programs
audits and at least 75% of those suggested by the Board and                      and operations is reduced. Better business practices are initiated.
management. Risk is addressed. 100% of the OIG audits are performed
                                                                                          FCA continues to improve and develop mechanisms to streamline
in high risk/high dollar programs and activities and/or are tied to the Agency
                                                                                          budget data to products and services.
strategic planning goals.
                                                                                          Unqualified opinion for Agency financial statements. Security of
      OIG contracted with a CPA firm to review FCA’s mission critical
                                                                                          information validated through FISMA review.
      systems under the Federal Information Security Management Act
      (FISMA) and by auditing FCA’s financial statements.                                 FCA has a redesign project underway to improve the Loan Account
                                                                                          Reporting System. FCA is more inclined to explore E-Government
Findings made during audit fieldwork are recognized and corrected by                      initiatives. These changes are due in part to OIG findings from audit
management prior to drafting of the audit or inspection report.                           and inspection reports.
      8 recommendations and 11 agreed-upon actions remain open: 15
                                                                                 FCA is more effective in carrying out its mission.
      were closed.
                                                                                          The Chairman has taken a broad approach in seeking opportunities to
Products are timely, i.e., average time to complete audits and issue draft                streamline and gain efficiencies. As a result of studies under contract,
reports will not exceed six months.                                                       management has made extensive changes. It is contemplated that this
                                                                                          will also eventually result in a comprehensive staffing plan and a solid
Audits are constructive. At least 75% of audit products contain                           approach to succession planning.
recommendations to improve agency operations. The Agency accepts at
                                                                                          FCA is faced with evaluating the cost effectiveness of the financial
least 80% of the OIG audit recommendations. The Agency actually
                                                                                          management system as well as the adequacy of planning for upgrades
implements all corrective actions prescribed by management decisions.
                                                                                          and integrated programs.
      100% of audit products contain recommendations to improve
      agency operations.
      The Agency accepted 75% of audit recommendations.
      Audits were performed within 6 months (average).


                                                                                     21
                                                                                               FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                          APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                   Farm Credit Administration
                                                   Office of Inspector General
                                                 FY 2005 Performance Measures
                                                                 AUDITS AND INSPECTIONS
                  Objective—Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.
  See Appendix for details of audits and inspections.
          Performance Goal 2—Provide technical advice and assistance to agency official in developing sound management information and
          financial reporting systems and in streamlining programs and organizations.

                               OUTPUT/CRITERIA                                                                  OUTCOME/IMPACT

Assist the Agency in building continuous, meaningful measures with          OIG input and advice contributes to Agency decisions and actions that are
outcomes important to their stakeholders.                                   more complete and valid at their inception.
                                                                                     Advice on governance issues was sought by Board members and
The IG advises the Chairman concerning policy direction or administrative
                                                                                     senior staff. An OIG Observation resulted in clarification of a Board
priorities.
                                                                                     Policy concerning operations.
      The OIG conducts an ongoing survey as to the effectiveness of the
      examination function. The survey is electronic. Results are           Increase in management request for advice, audit work or technical
      benchmarked from year to year. The OIG preserves anonymity and        assistance.
      integrity of the survey.
                                                                                     Regularly, management requests the OIG to validate changes in
                                                                                     business practices. The OIG is a laboratory of change, a model for
The OIG performs analysis and provides technical advice to management
                                                                                     best practices. The OIG’s budget preparation, with linkage to
concerning accounting, management systems and controls, and
                                                                                     performance measures was used as a model for the Agency.
performance measures.
                                                                                     The OIG advised the Agency on need for more rigorous controls during
      The IG identifies management’s top challenges in the semiannual
                                                                                     project management. It is imperative that management has the
      reports and the Agency’s Performance and Accountability Report.
                                                                                     appropriate information to make informed decisions.
                                                                                     OIG frequently serves as a sounding board and the conscience of the
                                                                                     Agency.




                                                                                22
                                                                                                  FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                             APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                     Farm Credit Administration
                                                     Office of Inspector General
                                                   FY 2005 Performance Measures
                                                                   AUDITS AND INSPECTIONS
                    Objective—Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.



           Performance Goal 3—Continuous improvement of the OIG staff, products and internal administration. Quality is highly valued.

                                 OUTPUT/CRITERIA                                                                   OUTCOME/IMPACT

Customer survey feedback is used to improve products and services.             Peer review reports provide an unqualified opinion that the OIG audit work
                                                                               meets or exceeds quality audit standards prescribed by GAO and the
       The OIG team is studying ways to develop more feedback for
                                                                               PCIE/ECIE.
       audits, inspections and other reviews as well.
                                                                                        OIG website is improved. Most products are made available on line.
OIG training ensures the technical proficiency of staff.
                                                                                        OIG audit follow-up database is revised and improved, making access
       The OIG team has taken technical courses to gain proficiencies: A                and sharing of information much more accessible.
       incoming IG took Kolbe assessment and OIG will continue to
       develop strategies to build a high performance team. Courses            Customer survey feedback evidences satisfaction with report practices.
       attended include: Building High Performance Organizations,
                                                                                        OIG seeks feedback on products. Office of Examination (OE) was
       Professionalism, Substance Abuse & Legal Ethics, BASEL Accord II
                                                                                        particularly pleased with innovative PowerPoint presentation of the Call
       Seminar, Problem Solving, Practical Kinesic Interviewing &
                                                                                        Report Verification audit. The Auditor-in-Charge gave a presentation
       Interrogation, Managing Emotions Under Pressure, Presenting Data
                                                                                        and demonstration to OE.
       and Information, Oversight of Federal Financial Auditing, 14th Annual
       Government Ethics Conference, AGA 15th Annual Leadership
                                                                               The IG’s opportunity to facilitate positive change within the Agency is
       Conference, IIA Auditing in Government, National Intergovernmental
                                                                               enhanced by the quality and credibility of OIG products and advice.
       Audit Forum, and Presdent’s Council on Integrity and
       Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE)             Solving a longstanding situation whereby an anonymous letter writer
       Retreat.                                                                         sought to undermine various management officials brought relief to
       In addition, PCIE/ECIE training sessions and legal forums are                    those troubled by the behavior.
       attended. The OIG team also stays current in FCA operations                      PCIE/ECIE honored OIG staff with three Awards of Excellence for work
       training courses and strategic management initiatives.                           performed during this period.

OIG implements administrative improvements identified through reviews of
Agency programs and through staff involvement with the professional
community.


                                                                                   23
                                                                                               FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                          APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                   Farm Credit Administration
                                                   Office of Inspector General
                                                 FY 2005 Performance Measures
                                                                        INVESTIGATIONS
            Objective—Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and mismanagement in
                                                           agency programs and operations.

          Performance Goal 1—Effectively investigate and report administrative and criminal violations relating to FCA programs and personnel
          to agency officials and Congress.

                               OUTPUT/CRITERIA                                                                 OUTCOME/IMPACT

Investigative reports are timely and presented in an objective and factual   Administrative action, convictions or pleas are obtained for employees and/or
manner. Memoranda are issued to management describing internal               contractors found guilty of wrongdoing.
control weaknesses or program deficiencies found during the investigative
                                                                             Management actions taken against employees serve as deterrent to future
process with suggestions to prevent and/or detect future wrongdoing.
                                                                             wrongdoing.
      One investigation was open at the beginning of FY 2005; five
      additional investigations were opened during the year. Three were      FCA internal policies, procedures, and controls are strengthened to prevent
      unsubstantiated and closed. One investigation, involving allegations   and/or detect future wrongdoing.
      concerning abuse of power and mismanagement were
      substantiated and resolved. Investigations took from four to eleven    Public confidence in the integrity of FCA programs and internal operations are
      months. Another involved a series of anonymous letters. Offenses       heightened.
      included impersonating a Federal official and undermining authority.
      The offending employee was identified by the OIG. The case was                  Investigations involving mismanagement and abuse of power by senior
      substantiated and referred for prosecution; but it was declined.                management were developed and forwarded to appropriate officials;
                                                                                      subsequently, management changes occurred.




                                                                                 24
                                                                                               FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                          APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                   Farm Credit Administration
                                                   Office of Inspector General
                                                 FY 2005 Performance Measures
                                                                        INVESTIGATIONS
            Objective—Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and mismanagement in
                                                           agency programs and operations.

          Performance Goal 2—Cause FCA employees and managers to recognize their responsibility and report observed or suspected
          wrongdoing to the OIG.

                               OUTPUT/CRITERIA                                                                 OUTCOME/IMPACT

Allegations of wrongdoing are received in a timely manner and are           Investigations are more successful because they are initiated in a timely
supported by specific information.                                          manner and have better information.
      Some anonymous complaints are vague, lacking sufficient                        There was a high level of cooperation from senior officials who reported
      information to pursue an investigation. As a result, the OIG is                problems to OIG and assisted in pinpointing mismanagement and
      developing ways to obtain further information.                                 abuse of power.

                                                                            FCA employees are more willing to report real or suspected wrongdoing
                                                                            because they trust the competence and fairness of OIG’s investigations.
                                                                                     OIG receives allegations through the hotline mechanisms and through
                                                                                     anonymous correspondence. Agency management notifies the OIG
                                                                                     team when anonymous allegations are sent to them.




                                                                                25
                                                                                                   FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                              APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                     Farm Credit Administration
                                                     Office of Inspector General
                                                   FY 2005 Performance Measures
                                                          LEGISLATIVE AND REGULATORY REVIEW
                 Objective—Review and make recommendations regarding existing and proposed legislation and regulations relating to agency
                                            programs and operations and the Inspectors General Community.

            Performance Goal 1—Maintain an effective program for reviewing and commenting on proposed and existing legislation and
            regulations affecting the Agency and the IG community.

                                 OUTPUT/CRITERIA                                                                   OUTCOME/IMPACT

Processes are established and documented for identifying and circulating      OIG input is part of the decision making process in approving or amending
(as appropriate) relevant documents.                                          legislation, regulations, circulars and other policy positions.
        Legislation is tracked on a daily basis. The PCIE/ECIE legislation               OIG collaborated with the Office of Regulatory Policy to designate
        committee is active in forwarding interest items.                                points in time when information will be sent to the OIG.

Constructive comments on relevant documents are submitted by the               Constructive criticism and creative alternatives offered in OIG comments
deadlines requested by the office, Agency, or staff circulating comments.      improve the quality and usefulness of documents initiated by the Agency.
        OIG updated its Privacy Act Routine Uses in order to participate in
                                                                               FCA Board and management are informed about the status of new or pending
        IG community quality assurance reviews of the investigation
                                                                               legislation or regulations initiated externally.
        program. This new routine use became a model for the ECIE
        community.                                                                       ECIE IGs continue to support a legislative effort to have the Program
                                                                                         Fraud Civil Remedies Act made applicable to a broader (more than
                                                                                         cabinet level) range of agencies.
                                                                                         Legislative update and reform is continually considered as a future
                                                                                         remedy to outdated provisions in the Farm Credit Act.
                                                                                         Review of several regulations: Proposed Rule on Governance;
                                                                                         Proposed Rule on Loan Syndication; Proposed Rule on Waiver of
                                                                                         Borrower Rights; and Proposed Rule on Liquidity and Investment.




                                                                                    26
                                                                                             FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                       APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                 Farm Credit Administration
                                                 Office of Inspector General
                                               FY 2005 Performance Measures
                                                                         OUTREACH
              Objective—Work with our agency head and the Congress to improve program management; and work with the Inspectors General
                                    community and other related organizations to address government wide issues.

           Performance Goal 1—Promote OIG’s role within the FCA and the community at large.

                               OUTPUT/CRITERIA                                                               OUTCOME/IMPACT

Develop and maintain educational brochures or pamphlets describing OIG   Agency employees’ acceptance of and cooperation with OIG activities is
roles and activities.                                                    improved through better understanding. OIG programs and products are
                                                                         improved through feedback from Agency employees.
 Facilitate feedback from Agency employees and refine products and
                                                                                   OIG updated Strategic Plan brochure form and several Directives.
 practices based on the feedback to OIG products and educational
 materials.                                                                        New PowerPoint format used for audit presentation and received well.
                                                                                   Hosted event to honor outgoing IG; the three FCA IGs and the Vice
                                                                                   Chairman of the ECIE attended.
                                                                                   Reaction to OIG Observations is deliberate and quick.

                                                                          Audit follow-up is improved. Compared to last reporting period, there are
                                                                          seven less open recommendations.




                                                                              27
                                                                                           FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                      APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                               Farm Credit Administration
                                               Office of Inspector General
                                             FY 2005 Performance Measures
                                                                       OUTREACH
            Objective—Work with our agency head and the Congress to improve program management; and work with the Inspectors General
                                  community and other related organizations to address government wide issues.

         Performance Goal 2—Provide leadership to organizations directly contributing to the IG community, the Agency and the Federal
         Government.

                            OUTPUT/CRITERIA                                                                OUTCOME/IMPACT

Time and resources are provided to OIG staff members as an incentive     Projects and activities of adjunct organizations such as the AGA, IIA,
to contribute to the Agency and outside organizations by serving on      PCIE/ECIE, CCIG, FLETC, and IGATI are improved by OIG staff
committees and holding offices.                                          contributions and participation.
     OIG staff actively participated in the ECIE, the Inspection and             Participating in the PCIE working group on inspections and evaluations.
     Evaluation Committee of the ECIE, Association of Government
                                                                                 Performed Quality Assurance Review on investigation operations of
     Accountants (AGA), Council of Counsels (CCIG), International
                                                                                 U.S. Government Printing Office.
     Association of Financial Crime, Instructor at the Inspectors
     General Auditor Training Institute (IGATI), GPRA Roundtable,
                                                                        FCA programs and operations are more effective and efficient.
     Employee Council, Council for Excellence in Government, Senior
     Staff, Accountability Report Workgroup, and Federal Women’s                  OIG has a goal to help the Agency build continuous, better, concrete
     Program Committee.                                                          measures with outcomes important to its stakeholders. This was
                                                                                 specifically stressed in the audit of Performance Measures.
     OIG networking opportunities have resulted in an expanded
     consideration of FCA ideas and practices by community contacts              Implementation occurred immediately.
     and experts. OIG has shared telecommuting policies, hotline                 Contractors performing studies for the Agency validate the evaluations
     procedures, performance measures and performance contracts                  by OIG and urge recommendations to be accomplished.
     and evaluation methods. Likewise, FCA benefits from the
     opportunity to benchmark practices in other agencies.                       OIG assisted the Agency in improving electronic communication by
                                                                                 making suggestions to improve the web site and consider more
                                                                                 electronic transactions with regulated entities and the public.




                                                                            28
                                                                                            FCA    SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                                                                                       APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




                                                      Farm Credit Administration
                                                      Office of Inspector General
                                                    FY 2005 Performance Measures
                                                                           APPENDIX

                                                                            AUDITS

                                                                                                     AUDITS ARE
AUDIT NAME                  AUDITS ARE RELEVANT      RISK IS ADDRESSED      PRODUCTS ARE TIMELY                                AGENCY ACCEPTS 80%
                                                                                                     CONSTRUCTIVE

Call Report Data            OIG initiated            Strategic Plan         6 Months                 2 Agree Upon Actions      Accepted all;
Verification                                                                                                                   0 implemented

FY 2004 Financial           Mandated Annual Audit    Strategic Plan         6 Months                 No findings               n/a
Statements

Performance Measures        OIG initiated                                   5 Months                 1 Agreed Upon Action      1 implemented
and Internal Controls                                                                                and                       2 recommendations
                                                                                                     2 Recommendations         pending decision


                                                                          INSPECTIONS

                                                                                           INSPECTIONS ARE
INSPECTION NAME                  INSPECTIONS ARE RELEVANT      PRODUCTS ARE TIMELY                                        AGENCY ACCEPTS 80%
                                                                                           CONSTRUCTIVE

Protection of Credit Card        OIG initiated                 6 months                    3 Agreed Upon Action           3 implemented
Numbers


                                                                            REVIEW

Federal Information Security Management Act Review—Legislatively mandated. Performed in 2 months. No material findings. Reports to OMB as a follow-up.




                                                                                29
                      FCA   SE MI ANNU AL REPOR T TO THE C ONGRE SS
                                APRI L 1 , 2 0 05 —SEPTEM BER 3 0, 20 05




             R E P O R T
Fraud        Waste            Abuse             Mismanagement




                 FARM CREDIT ADMINISTRATION
                OFFICE OF INSPECTOR GENERAL

        phone: Toll Free (800) 437-7322

                             (703) 883-4316

           Fax:    (703) 883-4059

            e-mail: fca-ig-hotline@starpower.net

            mail:   Farm Credit Administration
                    Office of Inspector General
                    1501 Farm Credit Drive
                    McLean, VA 22102-5090



                                30
